<html>
<title> - FULL COMMITTEE MARKUP OF ENTREPRENEURIAL DEVELOPMENT LEGISLATION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                        FULL COMMITTEE MARKUP OF 
                ENTREPRENEURIAL DEVELOPMENT LEGISLATION 

=======================================================================

                      COMMITTEE ON SMALL BUSINESS
                 UNITED STATES HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 23, 2007

                               __________

                          Serial Number 110-24

                               __________

         Printed for the use of the Committee on Small Business


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                     U.S. GOVERNMENT PRINTING OFFICE

34-836 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



























                   HOUSE COMMITTEE ON SMALL BUSINESS

                NYDIA M. VELAZQUEZ, New York, Chairwoman


JUANITA MILLENDER-McDONALD,          STEVE CHABOT, Ohio, Ranking Member
California                           ROSCOE BARTLETT, Maryland
WILLIAM JEFFERSON, Louisiana         SAM GRAVES, Missouri
HEATH SHULER, North Carolina         TODD AKIN, Missouri
CHARLIE GONZALEZ, Texas              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              MARILYN MUSGRAVE, Colorado
RAUL GRIJALVA, Arizona               STEVE KING, Iowa
MICHAEL MICHAUD, Maine               JEFF FORTENBERRY, Nebraska
MELISSA BEAN, Illinois               LYNN WESTMORELAND, Georgia
HENRY CUELLAR, Texas                 LOUIE GOHMERT, Texas
DAN LIPINSKI, Illinois               DEAN HELLER, Nevada
GWEN MOORE, Wisconsin                DAVID DAVIS, Tennessee
JASON ALTMIRE, Pennsylvania          MARY FALLIN, Oklahoma
BRUCE BRALEY, Iowa                   VERN BUCHANAN, Florida
YVETTE CLARKE, New York              JIM JORDAN, Ohio
BRAD ELLSWORTH, Indiana
HANK JOHNSON, Georgia
JOE SESTAK, Pennsylvania

                  Michael Day, Majority Staff Director

                 Adam Minehardt, Deputy Staff Director

                      Tim Slattery, Chief Counsel

               Kevin Fitzpatrick, Minority Staff Director

                                 ______

                         STANDING SUBCOMMITTEES

              Subcommittee on Finance and Tax

                   MELISSA BEAN, Illinois, Chairwoman


RAUL GRIJALVA, Arizona               DEAN HELLER, Nevada, Ranking
MICHAEL MICHAUD, Maine               BILL SHUSTER, Pennsylvania
BRAD ELLSWORTH, Indiana              STEVE KING, Iowa
HANK JOHNSON, Georgia                VERN BUCHANAN, Florida
JOE SESTAK, Pennsylvania             JIM JORDAN, Ohio

                                 ______

              Subcommittee on Contracting and Technology

                      BRUCE BRALEY, IOWA, Chairman


WILLIAM JEFFERSON, Louisiana         DAVID DAVIS, Tennessee, Ranking
HENRY CUELLAR, Texas                 ROSCOE BARTLETT, Maryland
GWEN MOORE, Wisconsin                SAM GRAVES, Missouri
YVETTE CLARKE, New York              TODD AKIN, Missouri
JOE SESTAK, Pennsylvania             MARY FALLIN, Oklahoma

        .........................................................

                                  (ii)

  

              Subcommittee on Regulations, Health Care and Trade

                   CHARLES GONZALEZ, Texas, Chairman


WILLIAM JEFFERSON, Louisiana         LYNN WESTMORELAND, Georgia, 
RICK LARSEN, Washington              Ranking
DAN LIPINSKI, Illinois               BILL SHUSTER, Pennsylvania
MELISSA BEAN, Illinois               STEVE KING, Iowa
GWEN MOORE, Wisconsin                MARILYN MUSGRAVE, Colorado
JASON ALTMIRE, Pennsylvania          MARY FALLIN, Oklahoma
JOE SESTAK, Pennsylvania             VERN BUCHANAN, Florida
                                     JIM JORDAN, Ohio

                                 ______

              Subcommittee on Urban and Rural Entrepreneurship

                 HEATH SHULER, North Carolina, Chairman


RICK LARSEN, Washington              JEFF FORTENBERRY, Nebraska, 
MICHAEL MICHAUD, Maine               Ranking
GWEN MOORE, Wisconsin                ROSCOE BARTLETT, Maryland
YVETTE CLARKE, New York              MARILYN MUSGRAVE, Colorado
BRAD ELLSWORTH, Indiana              DEAN HELLER, Nevada
HANK JOHNSON, Georgia                DAVID DAVIS, Tennessee

                                 ______

              Subcommittee on Investigations and Oversight

                 JASON ALTMIRE, PENNSYLVANIA, Chairman


JUANITA MILLENDER-McDONALD,          LOUIE GOHMERT, Texas, Ranking
California                           LYNN WESTMORELAND, Georgia
CHARLIE GONZALEZ, Texas
RAUL GRIJALVA, Arizona

                                 (iii)

  
























                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page

Velazquez, Hon. Nydia M..........................................     1
Chabot, Hon. Steve...............................................     2
Michaud, Hon. Michael............................................     3
Shuler, Hon. Heath...............................................  4, 7
Buchanan, Hon. Vern..............................................     5
Fallin, Hon. Mary................................................     8
Grijalva, Hon. Raul..............................................    10
Sestak, Hon. Joe.................................................    11

                                APPENDIX


Prepared Statements:
Velazquez, Hon. Nydia M..........................................    14
Chabot, Hon. Steve...............................................    16

                                  (v)

  


                        FULL COMITTEE MARKUP OF



                ENTREPRENEURIAL DEVELOPMENT LEGISLATION

                              ----------                              


                        WEDNESDAY, MAY 23, 2007

                     U.S. House of Representatives,
                               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10:00 a.m., in Room 
2360 Rayburn House Office Building, Hon. Nydia Velazquez 
[Chairwoman of the Committee] presiding.
    Present: Representatives Velazquez, Jefferson, Shuler, 
Gonzalez, Grijalva, Michaud, Cuellar, Moore, Altmire, Braley, 
Clarke, Ellsworth, Sestak, Chabot, Bartlett, Graves, 
Fortenberry, Heller, Davis, Fallin, Buchanan and Jordan.

           OPENING STATEMENT OF CHAIRWOMAN VELAZQUEZ

    Chairwoman Velazquez. I am pleased to call to order today's 
markup.
    Today's markup addresses two very important issues for 
small firms--energy and the SBA's entrepreneurial development 
programs. Because they provide three out of every four new 
jobs, there is no question that high-quality technical 
assistance and energy efficient resources should be available 
to small business owners.
    One of the most important objectives of the SBA is to 
provide direction and resources to those looking to start and 
grow their businesses. To do this, the agency has a number of 
initiatives that were designed to meet the needs of small 
business owners. However, as the economy has changed, so have 
the challenges facing this nation's entrepreneurs. At the top 
of this list is the need for relief from rising energy costs. 
In fact, two-thirds of small business owners anticipate a 
decrease in profits due to the current price of energy.
    The bills before us today provide SBA's entrepreneurial 
development programs with the capacity to ensure small 
businesses can address the specific issues they face in current 
economic conditions. In addition, entrepreneurs will have 
access to the tools necessary to address their energy needs. I 
want to thank my colleagues for working on these issues and for 
the solutions they have developed.
    Today's environment for small business is not easy. We hear 
constantly of the barriers that stand in the way of their 
success. With the contributions they make to this country, it 
is important that we give small firms the resources they 
deserve. All members of the Committee should be commended for 
their work towards this goal.
    At the conclusion of today's markup, this Committee will 
have moved 10 separate pieces of legislation, 5 of which have 
already passed the House. We could not have done this without 
everyone's cooperation, and I appreciate the members' 
willingness to work together. I especially want to thank 
Ranking Member Chabot for all of his construction feedback.
    What the Committee has been able to do so far represents 
significant progress. I want to make it clear that this is not 
because of one person's or one side's agenda, but because of 
the bipartisan collaboration we have maintained. While we have 
accomplished a lot, we have much more to do, if our goal is to 
improve the environment for entrepreneurs.
    I look forward to continuing to work together in a way that 
best serves the needs of our nation's small businesses. I would 
now like to yield to Ranking Member Chabot for his opening 
remarks.

                OPENING STATEMENT OF MR. CHABOT

    Mr. Chabot. I would like to thank the Chairwoman for 
holding this markup and for her remarks here this morning--this 
markup on this important set of bills. The Committee has not 
examined legislation concerning the outreach and technical 
assistance programs of the Small Business Administration in 
almost four years, and Congress has not considered a general 
overall of such programs since the reauthorization in 2000.
    Of the 28 million small businesses in the United States, 
the vast majority do not have the financial wherewithal to hire 
sophisticated management consultants or retain large numbers of 
in-house staff to address the myriad issues that their 
businesses face. The vast spectrum of businesses and the 
potential needs of their owners require an equally broad array 
of technical advice services to help them prosper.
    This advice might range from the simplicity of preparing a 
cashflow chart for a home-based business to compliance with the 
Environmental Protection Agency's latest maximum achievable 
control standard for air pollutants. Given the need, Congress 
authorized a wide variety of public-private partnerships 
overseen by the Small Business Administration to offer 
technical advice that larger businesses can obtain from either 
their own personal or through the retention of consulting 
firms.
    These programs run the gamut from general outreach programs 
offered by volunteer executives to programs designed to target 
assistance at groups that normally might not even consider that 
the government has programs to assist them in the operation of 
their businesses. No one can deny the effectiveness of these 
programs.
    As we heard during testimony last week, the technical 
assistance provided has helped Native Americans start 
businesses despite numerous bureaucratic hurdles, and an 
immigrant woman create a thriving handbag manufacturing 
company. With continued rapid changes in the American economy, 
the technical assistance programs must be able to respond in a 
similarly agile manner.
    The bills that we are considering today are an excellent 
start in maintaining the quality of these programs while 
ensuring that they meet any objectives related to reaching 
their targeted audiences. In addition, the bills will reduce 
bureaucratic red tape facing the private partners while 
providing and improving oversight of these programs. Given the 
benefits that these programs provide to small businesses and 
entrepreneurs, I think we all support them.
    I must make a few comments about the scope of the bill on 
small business development centers. As I noted in my opening 
statement when Mr. Preston testified on the President's budget 
for the SBA, it seems fair that the small business development 
centers, SBDCs, should get an increase to cover inflation, if 
the SBA gets a similar increase. So an authorization increase 
is useful.
    However, I am less than convinced of the need for the 
multiplicity of additional targeted competitive grant programs 
for the SBDCs. I recognize that none of these programs will 
reduce the core funding for the program and will require 
separate appropriate. Despite this, I think we need to work in 
a bipartisan manner to think about ways that the size of this 
authorization for the various targeted programs might be 
further reduced.
    Finally, I must address one bill before us today that is 
not directly related to the SBA's entrepreneurial development 
programs. No one can doubt that rising energy costs are a 
problem for America's businesses. The ultimate solution 
probably requires a mix of developing more energy resources 
within the control of the United States while also using these 
resources more efficiently.
    Small businesses are innovators, and rising energy costs 
certainly constitutes the necessity that is the mother of 
innovation. To the extent that the bill we are considering 
today assists small businesses, both as producers of energy 
resources and teaches them new ways to use energy more 
efficiently, I find no reason to oppose the bill.
    The modifications in this bill to Title III of the Small 
Business Investment Act of 1958 may have some utility, and, as 
drafted, do not increase any spending. Nevertheless, I am 
concerned that the appropriators may interpret the 
authorization from this Committee as the go-ahead to 
appropriate before allowing the program to operate a zero 
subsidy and see whether there is even a need for federal 
funding of venture capital for small businesses constructing 
renewable fuel plants.
    But, again, although we do have some reservations on some 
aspects in some areas, overall we think all of these bills move 
us in the right direction, and I want to again commend the 
Chairwoman for working in a bipartisan manner and including 
members on both sides who have offered bills that will be 
addressed here this morning.
    And, again, thank you, Madam Chair, for your cooperation. 
And I yield back.
    Chairwoman Velazquez. Thank you, Ranking Member Chabot.
    Are there any other members that wish to be recognized for 
the purpose of opening remarks? I now recognize the gentleman 
from Maine for the purpose of a colloquy.

                OPENING STATEMENT OF MR. MICHAUD

    Mr. Michaud. Thank you very much, Madam Chairwoman, Mr. 
Ranking Member. I was going to offer amendments to the bills 
this morning that create new grant programs today. While I have 
decided not to offer them, my goal was to protect the core 
funding of the small business development center program. And 
it was to ensure that the creation of any new grant programs do 
not reduce the core funding for SBDC programs.
    Will the Chair and Ranking Member work with me to protect 
the core funding as we move forward on the authorization and 
appropriation process?
    Chairwoman Velazquez. I thank the gentleman for raising 
this important issue, and I agree that we need to address this, 
and I will make a commitment to work with you and your staff on 
this matter as Congress considers the funding for the core SBDC 
program.
    Mr. Michaud. Thank you, Madam Chairwoman. I also would like 
to ask unanimous consent to allow the Association of Small 
Business Development Centers to submit a letter for the record 
dealing with this issue.
    Chairwoman Velazquez. Without objection.
    Mr. Michaud. Thank you.
    Chairwoman Velazquez. Are there any other members that wish 
to be recognized for the purpose of opening remarks? Mr. 
Shuler?

                OPENING STATEMENT OF MR. SHULER

    Mr. Shuler. Madam Chair, thank you, and thank Ranking 
Member Chabot for the hard work and the dedication of holding 
this markup today.
    I am particularly pleased that we are considering the Small 
Energy Efficiency Business Act. Small businesses are the first 
to be affected by rising energy prices. The small businesses 
will be the first to find the solutions. This bill will give 
them the tools that they need to lead our nation to energy 
efficiency and independence, and I urge my colleagues to 
support this bill.
    And, once again, just a special thanks to Ranking Member 
Chabot and to Chairwoman Velazquez for their hard work and 
dedication. And, truly, of all the committees, this is 
certainly a very bipartisan support, and I commend both of you 
for that.

    Mr. Chabot. A breath of fresh air, as we like to say.
    Mr. Shuler. That it is.
    Mr. Chabot. Excellent.
    Chairwoman Velazquez. Are there any other members that wish 
to be recognized for the purpose of opening remarks?
    Mr. Chabot. Madam Chair?
    Chairwoman Velazquez. Yes.
    Mr. Chabot. If any of our members would like to speak, they 
are certainly welcome to speak or they can wait until we bring 
up the bill. We are going to bring up the bills individually?
    Chairwoman Velazquez. Yes.
    Mr. Chabot. Yes. They can speak at the bill at that time, 
if they would like.
    Chairwoman Velazquez. The first order of business is to 
consider the SBA's Veterans' Program Act of 2007, introduced by 
Representative Buchanan.
    Today, more than 130,000 troops have already returned home 
from Iraq and Afghanistan. These men and women are increasingly 
turning towards small business ownership. In fact, veteran 
business owners account for 14 percent of all self-employed in 
the U.S.
    Mr. Buchanan's legislation ensures that those servicemen 
and women who are returning from Iraq or Afghanistan and 
transitioning into civilian life will have all the 
opportunities possible to pursue entrepreneurship, should they 
choose that career path. This bill strengthens and expands 
existing programs, providing counseling and necessary resources 
to veterans.
    Veterans are an increasing portion of the small business 
sector. After the dedication they have demonstrated to this 
country, helping them achieve the American dream of 
entrepreneurship is the least that we can do.
    I strongly urge support of this legislation. I now yield to 
the bill's sponsor, Mr. Buchanan, for his remarks.

             STATEMENT OF MR. BUCHANAN ON H.R. 2366

    Mr. Buchanan. Thank you, Madam Chair. And I would also like 
to say that I want to thank you. You don't just talk about 
bipartisanship spirit, you have reached out to me numerous 
times, called me. I appreciate that. I think a lot of freshmen 
coming in, we wanted to have that sense of that spirit, and I 
appreciate that leadership.
    I would also like to thank the Ranking Member for working 
with me on this legislation, allowing for a swift 
consideration.
    I want to also urge my colleagues on the Small Business 
Committee to join me in an effort to enact a good piece of 
legislation that will go a long way towards helping our 
veterans succeed in the small business world after their 
military service is over.
    My bill, H.R. 2366, would create an important program 
within the Small Business Administration that will give our 
veterans not just a chance at success, but a real chance, and 
provide them with all of the help and assistance a grateful 
nation can offer. The legislation is intended to help veterans 
through grants, information services, and contacts with 
professionals in their field of endeavor.
    This federal support will enhance the ability of a veteran 
to become an entrepreneur, his or her, in their own right. My 
bill would put an emphasis on providing veterans with market 
research, financial options, and technological training 
important to becoming a successful business owner.
    H.R. 2366 not only expands the number and scope of veteran 
outreach centers, it ensures the openings of more doors and 
opportunities for our women veterans. Assisting our women 
returning from combat has been an area long overlooked, and it 
is high time we did something about it.
    Today, our Committee will pass a bill that will help 
individuals make an important transition from being a veteran 
to a small business entrepreneur. I urge all my colleagues to 
support H.R. 2366.
    Thank you, Madam, Chair.
    Chairwoman Velazquez. Thank you.
    I now yield to Ranking Member, Mr. Chabot.
    Mr. Chabot. Thank you, Madam Chair. And in the interest of 
moving the markup along, I will be very brief. I just want to 
commend the gentleman from Florida for offering this helpful 
bill. There is no group, I believe, who have earned our 
appreciation more than the veterans.
    And we have, as we know, many, many of our military 
personnel are serving in Iraq and Afghanistan and other places 
around the world, and many of these military personnel are 
obviously women as well. So I want to commend the gentleman for 
offering this, and we appreciate his hard work on this 
Committee.
    And I yield back the balance of my time.
    Chairwoman Velazquez. Thank you.
    Are there any other members that wish to be recognized?
    [No response.]
    The Committee now moves to consideration of the bill H.R. 
2366. The Clerk will report the title of the bill.
    The Clerk. H.R. 2366, to reauthorize the Veterans' 
Entrepreneurial Development Programs of the Small Business 
Administration, and for other purposes.
    Chairwoman Velazquez. I ask unanimous consent that the bill 
in its entirety be open for amendments at this time. Does any 
member seek recognition for the purpose of offering an 
amendment?
    [No response.]
    Seeing no amendments, the question is on reporting H.R. 
2366. All those in favor, say aye.
    [Ayes.]
    Those opposed, say no.
    [No response.]
    The ayes have it. The bill is adopted and reported.
    The next order of business is to consider the Small Energy 
Efficient Business Act, introduced by Representative Shuler.

    Currently, the leading concern for small business owners is 
the high cost of energy. Gas prices are now reaching an average 
of $3.10, up 77 cents from the beginning of the year. There is 
no question that this is having an impact on entrepreneurs.
    Given that small businesses already have limited margins, 
the last thing they need is additional costs adding to their 
bottom line. H.R. 2389 will help small businesses by providing 
new financing options for the purchase of more energy efficient 
products.
    For example, a small business owner could save 20 percent 
of its energy costs by installing a solar water heating system 
that has an upfront cost of $160,000. But with a savings in 
energy use, it will pay for itself in five years. Clearly, any 
assistance we can provide to help small businesses purchase 
such products is well worth the investment.
    This legislation not only helps small firms reduce energy 
consumption, but also recognizes the pivotal role they play in 
the development of energy efficient technology. Entrepreneurs 
are leading the way, accounting for more than 70 percent of 
renewable fuel producers. H.R. 2389 ensures that this will 
continue by creating equity investment tools specifically 
targeting the development of the next generation of renewable 
fuels.
    Today, through the Small Energy Efficient Business Act, we 
have an opportunity to address the energy concerns of 
entrepreneurs and to provide them with some relief. I urge 
support of this legislation, and now I recognize or yield to 
the bill's sponsor, Mr. Shuler, for this remarks.

              STATEMENT OF MR. SHULER ON H.R. 2389

    Mr. Shuler. Madam Chair, thank you. And as I made reference 
to in my opening remarks, you know, our small businesses are--
is a business that is affected mostly, and with--as you say, 
the margins are so close in our small business, we have got to 
do all that we can to protect them and to ensure their 
longevity, and the small business continues to be the backbone 
of our community throughout our country.
    And helping them with this legislation will certainly be 
able to help them gain some of the funding that is necessary 
for them to cut down on their costs and be more energy 
efficient and lead the way. And I just urge my colleagues to 
support this bill.
    I yield back.
    Chairwoman Velazquez. I yield to Mr. Chabot for his 
remarks.
    Mr. Chabot. Thank you, Madam Chair. Once again, I will be 
brief. I want to commend the gentleman from North Carolina for 
his leadership in offering this piece of legislation. There is 
no question that the small business community faces a number of 
challenges, probably the top challenge being the high cost of 
health care, but no question number two is probably the high 
cost of energy, and it has been going nowhere but up.
    So this legislation hopefully will move us in the right 
direction, and I want to commend the gentleman for offering it.
    I yield back the balance of my time.
    Chairwoman Velazquez. Are there any other members that wish 
to be recognized on H.R. 2389?
    [No response.]
    The Committee now moves to consideration of the bill H.R. 
2389. The Clerk will report the title of the bill.
    The Clerk. H.R. 2389, to help small businesses to develop, 
invest in, and purchase energy efficient buildings, fixtures, 
equipment, and technology.
    Chairwoman Velazquez. I ask unanimous consent that the bill 
in its entirety be open for amendments at this time. Does any 
member seek recognition for the purpose of offering an 
amendment?
    [No response.]
    Seeing no amendments, the question is on reporting H.R. 
2389. All those in favor, say aye.
    [Ayes.]
    Those opposed, say no.
    [No response.]
    The ayes have it. The bill is adopted and reported.

    The next piece of legislation that we will consider is the 
SBA's Women's Procurement Act of 2007, introduced by 
Representative Fallin.

    Women-owned small businesses have increased at nearly 
double the rate of all firms. There is no doubt that women's 
business centers, with their technical assistance and 
counseling initiatives, have played a key role in facilitating 
this phenomenal growth. Representative Fallin's legislation 
will provide needed stability while redirecting the program 
back to its original mission of helping develop 
entrepreneurship around low-income and economic disadvantaged 
areas.
    We often talk about moving women from welfare to work. 
Women business centers have the potential to move women from 
welfare to entrepreneurship. With Ms. Fallin's bill, we will 
build on the strong track record of this program.
    I now urge the support of this legislation and yield to Ms. 
Fallin for her remarks.

              STATEMENT OF MS. FALLIN ON H.R. 2397

    Ms.Fallin. Thank you, Madam Chair. I appreciate your 
support, and I also want to say how much I appreciate your 
commitment to startup businesses, growing businesses, creating 
jobs and creating an environment for entrepreneurship and 
working together as a team on this Committee.
    And I also want to commend Ranking Member Chabot's comments 
about targeted assistance to groups, because that is what I am 
hoping to accomplish in this legislation. He also mentioned 
about maintaining quality of our federal programs and reaching 
our objectives in the areas that we target, and that is what I 
am hoping to do in this legislation.
    Women business centers are an important part of grant 
programs that are funded by the Small Business Administration. 
Today, women business centers all across the country are 
providing women entrepreneurs with much needed technical 
assistance in starting and operating their small businesses.
    In the mid-'90s, the Federal Government began awarding 
grants to women business centers that were operating as non-
profit organizations in conjunction with institutions of higher 
learning. Originally, these grants were intended to be awarded 
to business centers in their first five years with the 
understanding that after this five-year period had ended the 
center would be financially self- sustaining.
    Although many women business centers did meet this goal, 
some have not, and for a variety of reasons. As a result, a 
greater percentage of the funding for this program has been 
consumed by operating costs at potentially unviable centers 
rather than the intended purpose of establishing new business 
centers. The result is a drag upon the system and viable 
business centers that are not truly serving an unmet need in 
their communities, and this jeopardizes the effectiveness and 
viability of the entire program.
    H.R. 2397, the SBA Women's Business Programs Act of 2007, 
restores the original priorities held by the Federal Government 
when this program was created. By offering a three-tier system 
of funding and lower caps on assistance for older business 
centers, we can ensure a balanced percentage of funding, and 
that it is used to support both new and existing business 
centers.
    The first tier requires at least 40 percent of the total 
funds to be reserved for the purpose of establishing and 
supporting new women business centers during their first five 
years in existence. The second tier will be used--that is 20 
percent of total funds--to sustain the centers that have 
successfully existed during the first five years. And, lastly, 
the third tier will use a maximum of 40 percent of the funds to 
continue supporting centers that have existed already for eight 
years or more, and have met necessary benchmarks set forth by 
the SBA to receive this funding.
    This three-tier system will offer a helping hand to the 
newly-established centers while slowly weaning the older 
centers off dependency of federal grant funds. It is important 
to realize that this legislation does not affect the overall 
funding level for this program. Rather, it just rearranges the 
distribution of funds to reflect the original intention of 
these grants and to offer temporary assistance, rather than one 
that has permanent dependency on the Federal Government.
    And this legislation will ultimately restore 
accountability, it will add benchmarks and efficiency to a 
program that, while it is well intentioned, has become weighed 
down by inefficiency.
    So, Madam Chairman, I urge all members to join me in 
support of the Women's Business Act of 2007, and I yield back 
my time. Thank you.
    Chairwoman Velazquez. Thank you.
    I now yield to Ranking Member Chabot.
    Mr. Chabot. Thank you, Madam Chair. Once again, I will be 
brief. I want to thank the gentlelady from Oklahoma for 
offering this excellent bill. The gentlelady, before she came 
here to Congress, was the Lieutenant Governor of Oklahoma and 
had considerable expertise in the area of small business, so 
she has brought I think that expertise and experience to this 
Committee, and this bill is an example of a piece of 
legislation that I think will help not only this Committee but 
the country as well.
    So thank you for offering it, and I would encourage my 
colleagues to support it.
    Chairwoman Velazquez. Are there any other members who wish 
to be recognized at this point?
    [No response.]
    The Committee now moves to consideration the bill H.R. 
2397. The Clerk will report the title of the bill.
    The Clerk. H.R. 2397, to reauthorize the Women's 
Entrepreneurial Development Programs of the Small Business 
Administration, and for other purposes.
    Chairwoman Velazquez. I ask unanimous consent that the bill 
in its entirety be open for amendments at this time. Does any 
member seek recognition for the purpose of offering an 
amendment?
    [No response.]
    Seeing no amendments, the question is on reporting H.R. 
2397. All those in favor, say aye.
    [Ayes.]
    Those opposed, say no.
    [No response.]
    The ayes have it. The bill is adopted and reported.
    The next order of business is to consider the Native 
American Small Business Development Act of 2007, introduced by 
Representative Udall.

    There is no doubt small businesses spur economic growth and 
play a major role in the development and revitalization of 
neighborhoods across the country. A tremendous need exists in 
our Native American populations. These communities are among 
the most impoverished, with almost half of the residents on 
reservations unemployed and with very few opportunities to 
improve their situation.
    While many are clearly struggling, there is a strong desire 
to engage in entrepreneurship. The good news is that the Native 
American businesses are growing at a rate of 84 percent. Small 
business ownership is one of the strongest anti-poverty tools 
we have. If we want this trend to continue, budding 
entrepreneurs must receive the counseling and technical 
assistance necessary to create successful ventures.
    H.R. 2284 ensures Native American populations have access 
to the assistance they need to start or expand their 
businesses. This will be accomplished by a three-year pilot 
project that establishes Native Americans counseling centers 
through SBDCs. Enabling entrepreneurship to thrive and economic 
opportunity to grow in some of the most disadvantaged areas of 
this country is critical. This approach will ensure that the 
unique needs of these tribes are taken into account.
    The Native American Small Business Development Act of 2007 
encourages a comparative relationship between the state SBDC 
and the Native American population by requiring consultation 
with local tribe councils on how best to assist entrepreneurial 
development.
    This bill has enjoyed bipartisan support in the past and 
has passed the House in previous Congresses. It is my hope that 
with this Congress it can finally become law and expand the 
right to business ownership.
    I now yield--I encourage all the members to support this 
legislation, and I yield to Mr. Chabot for his remarks.
    Mr. Chabot. Thank you, Madam Chair. I, once again, will be 
brief. I want to commend Mr. Udall for his hard work on behalf 
of Native Americans and other groups in this country and this 
legislation and urge its adoption.
    I yield back.
    Chairwoman Velazquez. Are there any other members who wish 
to be recognized? Mr. Grijalva.

             STATEMENT OF MR. GRIJALVA ON H.R. 2284

    Mr. Grijalva. Thank you, Madam Chair, and I, as a co-
sponsor of this legislation, thank Mr. Udall and associate 
myself with the comments that you made in describing this 
legislation. It is vital that on tribal lands that there be a 
diversification of the economies of that land and of the people 
on that land, and I think this legislation goes a long ways 
toward bringing technical assistance, bringing a survival--
higher survival rate for businesses on tribal land.
    And the important point I think that you mentioned, Madam 
Chair, is the consultation. The state must consult with tribal 
leadership and tribal councils to assure that the strategies 
and the training is going to be appropriate. I think this is a 
huge step toward diversifying the economies on reservations and 
tribal lands, and I want to applaud the sponsor of the 
legislation and you, Madam Chair, for bringing this bill to us 
so rapidly.
    Thank you very much.
    Chairwoman Velazquez. Are there any other members that wish 
to be recognized on H.R. 2284?
    [No response.]
    The Committee now moves to consideration of the bill H.R. 
2284. The clerk will report the title of the bill.
    The Clerk. H.R. 2284, to amend the Small Business Act, to 
expand and improve the assistance provided by Small Business 
Development Centers to Indian Tribe Members, Alaska Natives, 
and Native Hawaiians.
     Chairwoman Velazquez. I ask unanimous consent that the 
bill in its entirety be open for amendments at this time. Does 
any member seek recognition for the purpose of offering an 
amendment?
    [No response.]
    Seeing no amendments, the question is on reporting H.R. 
2284. All those in favor, say aye.
    [Ayes.]
    Those opposed, say no.
    [No response.]
    In the opinion of the chair, the ayes have it. The bill is 
adopted and reported.

    Today's last order of business is the consideration of the 
SBA's Entrepreneurial Development Programs Act of 2007, 
sponsored by Vice Chairman Sestak.

    Technical assistance is one of the most often overlooked 
but most important services that can be provided to a small 
business owner. It has been well documented that businesses 
that receive this type of assistance are twice as likely to 
succeed. Mr. Sestak's bill not only enhances SBA 
entrepreneurial development programs, but also modernizes them 
to address many of the new challenges small businesses face 
today.
    While focusing on these types of concerns, the legislation 
provides much needed tools for entrepreneurs. It allows them to 
remain competitive in today's market and adapt to changing 
economic conditions. I strongly urge support of this 
legislation, and I yield to the sponsor of the bill, Mr. 
Sestak, for this remarks.

              STATEMENT OF MR. SESTAK ON H.R. 2359

    Mr. Sestak. Thank you, Madam Chair, and thank you and to 
your staff for the great support in this bill. And to the 
Ranking Member, thank you for your continued support of this 
and the other efforts I have tried to do through this 
Committee.
    I appreciate the opportunity to speak about this 
Entrepreneurial Development Program Reauthorization Act, which 
impacts two specific programs--the SBDC, small business 
development centers, and the Service Corps for Retired 
Executives, SCORE. First, the core SBDC program has been 
extremely effective, but there are certain operational 
improvements that can make it better in terms of flexibility.
    To this end, the changes that are proposed here will, 
first, ensure the quality of grant recipients to host SBDCs. 
Second, it will help SBDCs maintain their autonomy from undue 
SBA interference. Third, it will strengthen confidentiality 
protections for clients who come to the SBDC.
    Fourth, it will ensure that taxpayer dollars used to fund 
SBDC programs are kept solely for business development instead 
of other administrative functions. And, last, it will allow 
exemptions to the current cap on non-matching portability 
grants in the event of natural or human-caused disasters.
    It also has several new grant programs that are focused 
upon the particular needs of business constituencies, and I 
will just mention a few in view of time. First is the Capital 
Access Initiative, to establish grants to assist entrepreneurs 
in processing loan applications. Second is the Innovation and 
Competitiveness Initiatives that allow SBDCs to become 
technology centers to help market technologies and advance 
projects.
    Third is the older entrepreneurial assistance programs 
targeting older Americans interested in transitioning to 
business owners. There are others, but the last that I would 
like to mention is the Affordability Health Care Initiative--
such a burden, right up there with the energy cost, that help--
in order to help small businesses provide in the future 
affordable health care insurance options to their employees.
    And then, there is the SCORE Program included in this, 
which I am pleased at, in the sense that I believe it can even 
be stronger, with the provision in this bill that will actively 
recruit volunteer mentors who will reflect the changes socially 
and economically in the diversity throughout America, in 
particular with women and underrepresented minorities.
    So, again, thank you to both of you, and, Madam Chair, for 
allowing me to speak for a few moments on what I am very 
pleased will help throughout this nation, and I know will help 
my district.

    Chairwoman Velazquez. Thank you.
    I now yield to Mr. Chabot.
    Mr. Chabot. Thank you, Madam Chair, and, again, I will be 
brief.
    I want to thank the gentleman from Pennsylvania for 
offering this Entrepreneurial Development Programs Act. I think 
there are some changes and some modifications in here that are 
helpful and that will benefit small businesses, not only in 
Pennsylvania but around the country, and I commend the 
gentleman for offering it.
    Yield back.
    Chairwoman Velazquez. Are there any other members that wish 
to be recognized on H.R. 2359?
    [No response.]
    The Committee now moves to consideration of the bill H.R. 
2359. The clerk will report the title of the bill.
    The Clerk. H.R. 2359, to reauthorize programs to assist 
small business concerns, and for other purposes.
    Chairwoman Velazquez. I ask unanimous consent that the bill 
in its entirety be open for amendments at this time. Does any 
member seek recognition for the purpose of offering an 
amendment?
    [No response.]
    Seeing no amendments, the question is on reporting H.R. 
2359. All those in favor, say aye.
    [Ayes.]
    Those opposed, say no.
    [No response.]
    The ayes have it. The bill is adopted and reported.
    I ask unanimous consent that the Committee is authorized to 
correct section numbers, punctuation, and cross references, and 
to make other necessary technical and conforming corrections on 
the bills considered today.
    Without objection, so ordered.
    This markup is adjourned. Thank you.
    [Whereupon, at 10:45 a.m., the Committee was adjourned.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                 <all>

</pre></body></html>
